o £ /t> ?/2J
/M 0
No.

IN THE
SUPREME COURT OF THE UNITED STATES

AMIN A. RASHID,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.

ON PETITION FOR A WRIT OF CERTIORARI 1 o
UNITED STATES COURT OF APPEAL'S
FOR THE THIRD CIRCUIT

FILED
MAY 0 7 2021

PETITION FOR WRIT OF CERTIORARI

AMIN A. RASHID
Reg. No. 30591-066
FCI FORT DIX
P.O. BOX 2000
Joint Base MDL', N.J. 08640
Pro Se

beSIWed
MM t'»

QUESTION(S) PRESENTED
1.

Whether The Court Of Appeals Denies A Petitioner Due Process By

Its Recharacterization Of The Final Judgment Entered By. The District
Court Denying Him Permission To File A Rule 60(b)(4), Fed, R, Civ.
Proc., Motion As A Final Order Denying The Rule 60(b)(4) Motion
Petitioner Sought Permission To File Without Giving Petitioner
Notice And An Opportunity To Object; And, If So, Whether The Fifth
Amendment To The United States Constitution Requires Reversal Of The
Court Of Appeals’ Judgment Due To rjack Of Said.Notice?

L'lST OF PARTIES
All parties appear in the caption of the case on the cover page.

TABL'E OF CONTENTS
OPINIONS BEL'OW

1

JURISDICTION

2

CONSTITUTIONAL' AND STATUTORY PROVISIONS INVOL'VED

3

STATEMENT OF THE CASE

4

REASONS FOR GRANTING THE WRIT

8
11

CONCLUSION

INDEX OF APPENDICES
A

OPINION OF THE COURT OF APPEAL'S

B

DISTRICT COURT ORDER AND JUDGMENT APPEALED

C

ORDER DENYING REHEARING

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to
review the judgment below.
OPINIONS BEl'OW
The Opinion of the United States Court of Appeals appears at
Appendix "A" to the petition and is unpublished.
The Opinion of the United States District Court appears at
Appendix "B" to the petition and is unpublished.

1

JURISDICTION
The date on which the United States Court of Appeals decided
my case was December 8, 2020.
A timely petition for rehearing was denied by the United
States Court of Appeals on February 9, 2021, and a cony of the
Order denying rehearing appears at Appendix "C."
The jurisdiction of this Court is invoked under 28, U.S.C., §
1254(1).

2

CONSTITUTIONAL* AND STATUTORY PROVISIONS INVOLVED
AMENDMENT V
No person shell be held to answer for a capital:, or
otherwise infamous crime, unless on a presentment or
indictment of a Grand Jury, except in cases arising in
the land or naval forces, or in the Militia, when in
actual service in time of War or public danger; nor
shall any person be subject for the same offense to be
twice put in jeopardy of life or limb; nor shall be
compelled in any criminal case to be a witness against
himself, nor be deprived of life liberty, or property,
without due process of law; nor shall private property
be taken for public use , without just compensation *

AMENDMENT VI
In all criminal prosecutions, the accused shall enjoy
the right to a speedy and public trial , by an impartial
jury of the State and district wherein the crime shall
have been committed, which district shall have been
previously ascertained by law, and to be informed of
the nature and cause of the accusation; to be confronted
with the witnesses against him; to have compulsory process
for obtaining witnesses in his favor. and to have the
Assistance of Counsel for his defense.

3

STATEMENT OF THE CASE
In May 2009, a Superseding Indictment charged Petitioner with
ten counts of mail fraud, eight counts of aggravated identity
theft, and one count of passing an altered postal money order.
Following a jury trial, Petitioner was convicted of nine
counts of mail fraud and eight counts of aggravated identity theft.
The District Court sentenced Petitioner in July, 2013 to a total
term of imprisonment of 240 months, to be followed by 5 years of
supervised release. He was, also, ordered to pay approximately
$782,000.00 in restitution. Petitioner represented himself pretrial
during trial and for sentencing.
Petitioner disputed his conviction and sentencing and filed an
appeal to the Third Circuit Court of Appeals. In affirming
Petitioner's conviction and sentencing, the Third Circuit
explained:
Through his entity, the Center for Constitutional and Criminal
Justice, Inc. (the "Center"), Rashid received fees in exchange
for agreeing to help his clients prevent or reverse sheriff's sales
of their homes. Typically, Rashid's clients still lost their homes
and Rashid kept the fees. Rashid also stole his clients' identities
and used them to collect proceeds due to the prior owners of proper­
ties sold at sheriff's sales. City L'ine Abstract Company ("City
L'ine"), a title insurance company used in connection with the vari­
ous sheriff’s sales, issued distribution policies that ultimately
paid Rashid over $600,000.00.
United States v. Rashid

593 Fed

Appx. 132, 133 (3rd Cir. 2014).

In May 2016. Petitioner moved to vacate, set aside, or correct
his sentence pursuant to 28, U.S.C., § 2255- Petitioner raised
four sets of claims in his § 2255 petition:
(T) ineffective
assistance of pretrial counsel; (2) actual innocence; (3) prosecut­
orial misconduct; and (4) judicial misconduct. In a Memorandum
Opinion issued June 20, 2017, the District Court denied
Petitioner's 2255 motion.
One year prior to denying Petitioner’s.§ 2255 motion, June 20,
2016, the District Court granted in part the Government's motion
requiring Petitioner to seek leave of the Court before filing [any]
motions in this case. The Government's motion asked the District
Court to also consider a prior case in which Petitioner was
4

convicted "in 1993" and that he has diligently pursued relief from
that .judgment. In granting trie Government *» motion to restrict
Petitioner's access to the Court, the District Court explained that:
Defendant has filed numeral’s motions seeking to re-litigate issues that
have repeatedly been, decided by this Court and by the Third Circuit. In
addition to the multiple numerous motions to recuse and the thirty post
trial motions filed by Defendant, he has also filed fourteen nonmeritorious motions to dismiss the indictment against him as duplicitous,
jur.isd.iciona.l.ly defective, vindictive, fraudulent, or in violation of the
speedy trial act, eighteen motions for reconsideration, of various Court
rulings; and fourteen non-meritorious appeals, as well, as a number of
requests for rehearing and requests to recall the mandate < In .fact., with
respect to a "1993 conviction.," the Third Circuit found it "undeniable"
that Defendant's "history of pro se challenges to his 1993 conviction is
vexatious." Defendant has thus exhibited a "pattern of conduct from which
[the Court] can only conclude that a litigant is intentionlly abusing the
judicial, process and will continue to do so unless restrained.
Appendix "B," at pages 1-2. In light of its explanation, the
District Court held that "Defendant should not be permitted to file
any motions that attempt to relitigate issues that have been
decided" except "as to Defendant's pending § 2235 Motion and as to
[his] § 2241 action which [was] ... pending on appeal." Before
filing any motions in this case, Petitioner must now certify under
penalty of perjury that.* 1) the motion is brought in "good faith,"
(2) it raises issues not previously decided on the merits by any
federal court, and (3) upon fair adjudication entitles petitioner
to the relief requested. In denying Petitioner's § 2255 Motion, the
District Court did so without giving him a hearing.
On July 18, 2017, Petitioner filed a Motion for Reconsideration
challenging the District Court's decision not to hold an evidentiary
hearing and repeating the arguments that the District Court rejected
when denying his § 2255 Motion without reaching the "merits." The
District Court denied the motion. Petitioner then filed a "Motion
for Relief from Void Judgment Pursuant to Rule 60(b)(4), F.R. Civ.
Proc. and Request for an Evidentiary Hearing" that again raised two
issues related to a Grand Jury Subpoena used to obtain evidence used
by the Government in Petitioner's trial. On March 13. 2.018, the
District Court denied the motion explaining that "the arguments
raised in his current motion have plainly been rejected by this
Court and the Court of Appeals" arid that "[e.]ven if the Court were
5

to reach the merits of Defendant's Motion, Defendant has plainly
failed to state any grounds for relief cognizable under Rule
60(b)(4)."

On June 19» 2018, the Court of Appeals denied

Petitioner's request for a certificate of appealability.
On March 11, 2020, Petitioner filed a Motion for Permission to
File a Motion for Relief from Judgment Pursuant to Rule 60(b)(4).
Therein, Petitioner "swore under penalty of perjury" and presented
"documentary evidence" that the Government used "perjury,
subornation of perjury, and obstruction of the administration of
justice" to avoid suppression of "material evidence" used in his
trial. Further, he alleged that the perpetrators were the United
States Postal Service Inspector, Mary C. Fitzpatrick, and the
Assistant United States Attorney, Vineet Gauri, Esq., both of who
prosecuted his case on behalf of the Government. The Government
responded to Petitioner's Motion without denying his claims. The
Government instead argued that Petitioner was simply re-litigating
arguments which the District Court and the Third Circuit had already
rejected. The District Court adopted the Government's argument and
denied Petitioner relief despite the fact that the "record" in this
case does not evidence that the District Court, nor the Third
Circuit, has ever condoned the Government's use of "perjury,
subornation of perjury, and obstruction of the administration of
justice" to avoid suppression of "material evidence" used by the
Government in Petitioner's trial. Petitioner presented "documentary
evidence" to the District Court in support of his claims, to wit:
_
_
Inspector Mary Fitzpatrick appeared as a witness for
perjury
1)
the Government in a suppression hearing held by the District Court on June 2
2011, and testified "untruthfully, under oath," that she served a grand jury
suboena on Maurice Mander or his Attorney, Isaac Green, Esq., for docu­
ments from Maurice Mander. (An investigation conducted by Kerry Tucker,
Court Appointed Investigator, discovered that neither Mander, nor his
-Attorney was served with a subpoena). The District Court denied Rashid's
motion (Doc. #380) to call Mander and/or his attorney ,to testify as to their
receipt or knowledge of the grand jury subpoena for Documents from Mander:
2)
On June 2. 2011, after Inspector
subornation of perjury
Fitzpatrick testified that she met with Maurice Mander and served him with a
grand jury subpoena for documents, the Government Attorney, Vineet Gauri,
F.sa., coached her to change her testimony to state that she served the
subpoena on Mander's Attorney, Isaac Green, Esa. See., Hearing Tr., 6/2/2011, .
pp. 73-73. On May 21, 2013, during another hearing held by the District
Court, Mr. Gauri "admitted" to the District Court that the grand jury

6

subpoena was not "served" on either Mander, or his Attorney. He stated that
the "subpoena" was "faxed" to a number, given him by Attorney Green, but he
is not sure if Attorney Green received the fax. See, Hearing Tr., 5/21/2013,
p- 31. After Mr. Gauri "admitted" that the alleged grand .iury subpoena was
"faxed" and that he was not sure if Attorney Green received the "fax," the
District Court still denied Petitioner’s motion (Doc. # 389) to subpoena
Mander and Green to testify that neither of them had been served with a
grand .Iury subpoena: and
obstruction of the administration of .justice - The Grand Jury
3)
Subpoena "story" was Mr. Gauri's pretext to having the District Court
"admit" the Mander Documents for use as evidence in Petitioner's trial. The
Government "knowingly and intentionally" misled the District Court that a
Grand Jury Subpoena was properly obtained, used, and served to get "material
evidence" from Maurice Mander for use in Petitioner's trial. Had the
District Court known of the Government’s "criminal conspiracy" to have the
Mander Documents "admitted," it is reasonable to assume that a federal .iudee
would have Granted Petitioner's Motion to suppress.
'"he District Court entered its Order Denying Petitioner's Motion For
Permission to File a Rule 60(b)(4) Motion on August 3rd, 2020; the
District Court denied Petitioner's Reconsideration. Motion on August
28, 2020. On September 28th, 2020, Petitioner filed a timely Notice
of Appeal to the United States Court of Appeals for the Third
Circuit.
In his Notice of Appeal, Petitioner specifically noted
that he was appealing the District Court's Orders denying him
permission to file a Rule 60(b)(4) Motion.
On October 5th, 2020, the Court of Appeals issued a directive
stating, in part, as follows:
"A notice of appeal has been filed from the final order of the District
Court denying a motion to vacate, set aside or correct sentence pursu­
ant to 28 U.S.C. Section 2255, or a related motion filed pursuant to Fed.
R. Civ. P. 60(b). An appeal from such an order may not proceed to con­
sideration of the merits unless a 'circuit .iustice or .iudge' grants a
certificate of appealability. 28 U.S.C. Section 2253."
Thus, the Court of Appeals "recharacterized" the District Court's
"final .iudgment" denying Petitioner permission to file a Rule
60(b)(4) Motion as the District Court having denied Petitioner’s
Rule 60(b)f4) Motion; a motion that he was denied permission to

file.

The Court then denied him a certificate of appealability.
Petitioner sought a rehearing on grounds that the panel lacked
.iurisdiction to ad/iudicate Petitioner's matter under 28, U.S.C., §

2253(c)(1)(R), the certificate of appealability standard,
of Appeals denied rehearing.

7

The Court

REASONS FOR OR-A NT j wo THE WRTT
This is a classic case where hearing a criminal defendant’s
case on the merits will result in giving a citizen one of the most
fundamental rights guaranteed by the United States Constitution - a
fair trial. Here, the Government Attorney, Vineet Gauri , Esq., knew
Inspector Fitzpatrick's suppression hearing testimony that she
served a grand jury subpoena for evidence on Mander or his Attorney
was false because according to his averments to the District Court
on May 21, 2013, he, in fact, faxed the alleged grand jury subpoena
to Mander's Attorney, Isaac Green, Esq. It is a fundamental error
which must be heard on the "merits" if .iustice is to prevail. The
Supreme Court has long held that, "If a prosecutor uses testimony
it knows or should know is perjury, it is fundamental 1y unfair to
an accused." United States v. Agurs, 427 U.S. 97, 103, 96 S.Ct.
2392, 2397, 49 U.Ed.2d ^42 (1976). In his Section 2253 motion, one
of the grounds set forth for relief is "prosecutorial misconduct."
The District Court denied Petitioner's Section 2255 Motion "without
an evidentiary hearing." Given the plethora of "documentary
evidence" in the "record" of the case supporting a finding of
prosecutorial misconduct, there is a fundamental defect in this
Section 2255 proceeding which can be remedied by the District
Court's Grant of the hearing required'by Section 2255(b) on the
issue of "prosecutorial misconduct." If the Petitioner properly
filed a motion for permission to file a Rule 60(b)(4) Motion. The
District-. Court "erred" by denying him permission to file a Rule
60(b)(4) Motion. Petitioner is entitled to a ruling on the issue
of whether the District Court "erred" by denying him permission to
file a Rule 60(b)(4) Motion.

The Court of Appeals exceeded its
authorit-.v and denied Petitioner due process by its sua soonte
recharacterization of the District Court's final judgment. There
was no Rule 60(b)(4) Motion Judgment entered by the District Court
in this case.

The Court of Appeals' .iurisdiction in this case was
pursuant to 28, U.S.C., § 1291, not 28, U.S.C., § 2253(c)(1)(R).
The final .iudgment entered here was that of a motion denying
permission to file a Rule 60(b)(4) Motion.
8

Federal Courts are courts of limited jurisdiction, As a court
of limited jurisdiction, federal courts are obligated to consider
sua sponte whether it has jurisdiction to hear an appeal. See,
Steel. Co. v. Citizens for a Better Env' t, 523 U.S. 83, 94-95, 118
S.Ct. 1003, 140 U.Ed.2d 210 (1998)("the requirement that
jurisdiction be established as a threshold matter springs from the
nature and limits of the judicial power of the United States and is
inflexible and without exception.")(internal quotation marks and
alteration omitted): Render v. Williamsport Area Sch. Dist., 475
U.S. 534 , 541, 106 S.Ct. 1326, 89 L(.Eds.2d 501 (1986) ("HEjvery
federal aooellate court has a special obligation to satisfv itself
...of its own jurisdiction
. even [if] the parties are prepared
to concede it.")(internal quotation marks omitted). Here, the
Petitioner did not appeal "the final order in a proceeding under
section 2255," or a related Rule 60(b) action, Section 2258
authorizes district courts to take one of four(4) distinct courses
in remdving a successful § 2255 petitioner's unlawful sentence:
(1) discharge the prisoner, (2) grant the prisoner a new trial, (3)
resentence the oerisoner: or (4) correct the prisoner's sentence.
It is respectfully submitted that a motion seeking permission to
file a Rule 60(b)(4) Motion can result in none of the relief
permitted by a Section 2255 motion; therefore, at best, it is none
more than a plea to file a motion which seeks habeas relief. The
District Court curtailed Petitioner's habeas corpus rights as
embodied in the United States Constitution in violation of Art. I,
Sec. 9, cl. 2.
Ordinarily, a prisoner who seeks to appeal "the final order in
a proceeding under section 2255 must obtain a Certificate of
Appealability("COA") as a "jurisdictional prerequisite" to an
appeal. Miller-El y. Cockrell, 537 U.S. 322, 336, 123 S.Ct. 1029,
1545 U.Ed.2d 931 (2003). Appellate Courts are guided by law, 28,
U.S.C., § 2253(c)(1)(E), in requiring that a COA be obtained to
appeal denial of a section 2255 action. Federal Courts have no
authority to apply § 2253(c)(1)(R) requirements in none § 2255
actions. Furthermore, there is no statute which permits a Court of
Appeals to sua soonte "recharacterize" a District Court's final
9

.judgment(decision). The applicable law, 28, U.S.C., § 1291, giving
courts of appeals authority to review District Court decisions,
states, in relevant part, as follows: "The courts of appeals ...
shall have jurisdiction of appeals from all final decisions of the
district courts of the United States ..." Arizona v. Manvnennv. 451
U.S. 232, 244, 101 S.Ct. 1637, 68 U.Ed.2d 58 (1981). A final
decision "ends the litigation on the merits and leaves nothing for
the court to do but execute the judgment." Rav Haluch travel_Co. v.
Central Pension Fund of Qperating Engineers and Participating
Emnl overs, 571 U.S. 177, 183, 1 34 S.Ct. 773, 187 L'.Ed.2d 66Q
(2014). Appeal from such a final decision is a "matter of right."
Ellen Gelboim v. Rank of Amercia Corporation, et._al., 574 U.S.
A03, 133 S.Ct.. 8Q7, 190 U.Ed.2d 989 (2014). Since Petitioner's
Anneal from the District Court's final, decision denving his Motion
for Permission to Pile A Rule 60(h)(4) Motion was a "matter of
right," the Court of Appeals' sua seonte "recharacterization" of
the District Court's final decision unfairly infringed on
Petitioner’s Fifth Amendment Due Process right to be heard on the
"final decision" entered by the District Court- In Castro v.
United States, 540 U.S. 375, 157 U.Ed.2d 778, 124 S.Ct. 786 (2003),
this Court held that a federal district court cannot sua soonte
recharacterize a pro se litigant's motion as a first § 2255 motion
unless it informs the litigant of the consequences of the
recharacterization, thereby giving the litigant the oooortunitv to
contest the recharacterization, or to withdraw, or to amend the
motion. IrK, at 377, 1 57 U.Ed.2d 778, 124 S.Ct. 786. Castro dealt
with a District Court, of .its own volition taking away a
petitioner’s desired route-namely, a Federal Rule of Criminal
Procedure 33 motion - and transforming it, against his will, into a
§ 2255 motion. The Court of Appeals' sua sponte transformation of
the final decision of the District Court in this case is far more
egregious than the actions of the District Court in Castro, Here ,
the Court of Appeals' action permitted it to avoid ruling on the
"merits" of Petitioner's Appeal simply by invoking C0A standards.
This was an egregious violation of Petitioner's Constitutional
Right to Due Process and the Court should rule that such sua sponte
actions bv the Court of Appeals is forbidden.
10

CONCLUSION
For all of the abovementioned reasons this Honorable Court is
respectfully reauested to issue a Writ of Certiorari to review the
decision of the United States Court of Appeals for the Third
Circuit.
Respectfully submitted.
in 'r ■ Rashid

Date:

May 3rd, 2021

11

